No. 20-132

 

IN THE

Supreme Court of the United States

THE MOODSTERS COMPANY,

Petitioner,
Vv.

THE WALT DISNEY COMPANY; DISNEY ENTERPRISES, INC.;
DISNEY CONSUMER PRODUCTS AND INTERACTIVE MEDIA
INC.; DISNEY INTERACTIVE STUDIOS; INC.; DISNEY SHOPPING,
INC.; PIXAR,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,635 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 13, 2020.

 

Colin Casey Hoga:
Wilson-Epes Printing Co., Inc.
